No. 20-255

 

IN THE

Supreme Court of the United States

MAHANOY AREA SCHOOL DISTRICT,
Petitioner,

Vv.

B.L., A MINOR, BY AND THROUGH HER FATHER, LAWRENCE
LEVY, AND HER MOTHER, BETTY LOU LEvy,
Respondents.

On Writ of Certiorari to the United States Court of
Appeals for the Third Circuit

BRIEF OF NATIONAL ASSOCIATION OF PUPIL
SERVICES ADMINISTRATORS, PENNSYLVANIA
ASSOCIATION OF PUPIL SERVICES ADMINIS-
TRATORS AS AMICI CURIAE IN SUPPORT OF PE-
TITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,405 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
